                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

    Case Number: I02020007


                                                                                                      I
          We received an allegation that a graduate student' with a NSF Graduate Research ~ e l l o w s d i ~
          award2at a university' had violated the terms of the award by taking additional classes witdout
                                                                                                     I
          approval, taking extensive vacations, and being employed at another entity without approval.

          We interviewed the subject. The subject admitted taking two classes without approval in ,
                                                                                                       I
          addition to the subject's approved classes under the fellowship requirements. The subject stated
          that she was unaware of the requirement for approval but affirmed that the NSF award waslnot
          used as payment for those classes.                                                           I
I                                                                                                      I1
          The subject expressly denied the remaining allegations. The subject provided docurnentat\on in
          the form of W-2s and copies from the subject's passport. The W-2 forrns were not conclusjve,
          but supported the subject's statement. The documentation from the subject's passport confirmed
          the subject's denial of the allegation of extensive vacations.
                                                                                                      I
          We concluded that although the subject had violated the requirement for approval for additional
          classes, that violation was not material because NSF funds were not used for the classes an6 the
          subject did fblfill all class requirements under the fellowship award. We concluded that th;
                                                                                                       /I
          allegations regarding employment at another entity without approval could not be substantiated
          and that the allegation regarding vacations was incorrect.

          Accordingly, this case is closed.




          I
            Footnote redacted
            Footnote redacted
          3
            Footnote redacted


                                Agent               Attorney                Supervisor                    ~IGI
                                                                      ' i
      Sign / date
